HHS/OIG, Audit -"Review of Tennessees Intergovernmental Transfers.,"(A-04-02-02018)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Tennessees Intergovernmental Transfers," (A-04-02-02018)
May 25, 2004
Complete
Text of Report is available in PDF format (447 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Tennessee used the intergovernmental
transfers program to maximize Federal reimbursement at little or no cost to the State.  Moreover, Tennessee did
not use the program funds primarily for the benefit of public nursing homes, for which the program was designed.  Also,
Tennessees upper-payment-limit calculations for State fiscal years 2001 and 2002 exceeded the Medicare upper payment
limit by $23.7 million.  Of this amount, $21.8 million represents an overpayment, and the State had not yet claimed
the balance of $1.9 million.  OIG recommended financial adjustments.  OIG also recommended that Tennessee direct
the counties to improve recordkeeping procedures to ensure that no prior Federal funds are included in intergovernmental
transfers submitted for Federal matching, and establish review procedures to ensure the accuracy of upper-payment-limit
calculations.  Tennessee concurred with our recommendations.